                                   OFFICE OF INVESTIGATIONS

                          CLOSEOUT MEMORANDUM




There was no closeout written at the time this case was closed. The following information was
extracted from the file in conformance with standard closeout documents.

Our office was informed that the subject' was alleged to have committed other improper actions.
We received an allegation that the subject used an NSF computer to establish a File Transfer
Protocol site to allow an exchange of copyrighted software between the computer and outside
computer users. We were told this exchange was done over the course of several weeks. During our
investigation, the subject admitted to the wrongdoing and resigned. NSF decided not to notify the
software companies.

Accordingly this case is closed.
                                      NATIONAL SCIENCE FOUNDATION
                                          4201 WILSON BOULEVARD
                                         ARLINGTON, VIRGINIA 22230




                     To:     .

                                                    for Biologicd Sciences
                             ~ssistant~wgmnlhrenorate




         '   Subject :        Investigation No. I96070042

            This report concer--- ,       ,
                                         ---.
                                                    -, who is employed'as a Summer appointee at
     NSF as an Office Automation Clerk in the Directorate for Biological Sciences (BIO). We
     investigated to determine whether ..--. -.- ,had gained unauthorized access to a computer
     assigned to a BIO Program Officer, for the purpose of creating an unauthorized File Transfer
     Protocol (FI'P) site, and whether the site was used to upload and download copyrighted
     softwaie in violation of federal law.' We have determined tha                - created, managed,
     and dismantled the FIT site, and that he used it to obtain various copyrighted games and
     applications. The Department of Justice has declined to pursue criminal action in this
     matter, so we are referring it to you for appropriate administrative action.

     I. Background
                           - - --
                                is an undergraduate student at                                and
     State University. He has served on a temporary basis as an Office Automation Clerk in
     NSF's                                     over several periods since M a y 1995,' His current
     appointment began on 13 May 1996,*and is not to exceed 30 September 1996. His duties
     include installation and maintenance of computers, peripheral components, and software; in
     addition, he assists computer users in resolving various operation issues, and performs word
     processing and other clerical duties.

     11. Factual Summary

            In early June !996,                    ,*learned that a B10 Program Officer would be out of
     :!%, offit #-                         '   -.
               6:. ,, -.vte:ep-' .c'. , . . - c:ii~c.           ! .vent to the.Progrdln Officer's office, and
                                                                                                                 .,
     used the Program Officerls*AppleMacintosh Power PC computer to establish an FTP site,
     connected to the Internet. This would allow outside users to gain access to specified



'*   '   17 U.S.C. 55 501, 506; 18 U.S.C. 8 2319.
         Prim dates of service are as follows: 15 May 1995 through 18 August 1995; 21 November 1995 through 12
         Januaqt 1%;   1 1 March 1996 through 15 March 1996.
         directories within the computer, and they would be able to upload files to and download files
         from the computer. . -             purpose was to solicit users outside NSF to download
         copyrighted sofrware from the Fr'P site, and to upload copyrighted software to the FTP site.
         This would enable              ,to obtain additional unauthorized, copyrighted sofiware
         without having to purchase it from a retail source.

                          used FTP sofrware which he had obtained from the Internet to establish the
        J3-P site. He placed copies of two copyrighted games, SimCity 2000 and Toshinden, which
        he had purchased commercially, on the site to be downloaded by outside users. He then
        advised &ends of the site's existence and purpose, encouraging them and others to use it. He
        also placed an explanatory message on the site, with directions to users, and identified himself
        as "confushus" (see Attachment 1).
I              Over the next several weeks, hundreds of outside users gained'access to the site, and
        many uploaded unauthorized copies of additional copyrighted software onto the site.
                   stored the uploaded software on 3.5'' floppy disks, using file compression and disk-
        spanning software he had brought to NSF for that purpose. He then took the disks home
    1   and installed the software o n his home computer.

               O n 11 July 1996, NSF Division of Information Systems @IS) technicians noticed a
        large number of calls coming from the Internet to an NSF computer. They discovered an
                                                                                                           I
        Fll' site on the BIO Program Officer's computer. Upon further examination of the
        computer, they found copies of several, copyrighted software products stored in the
        computer's hard drive. At approximately 6:00 PM on 11 July 1996, the DIS technicians
        copied some of the site's files to the NSF main computer to preserve them, and left the
        computer site up and running. The next morning, at approximately 11:OO AM, the DB
        technicians checked the Program Officer's computer and found that the FTP site had been
        dismantled and all of the files deleted.

                At some point during the evening'of I1 July or the early morning of 12 July 1996,
                    shut down the FIT site on the Program Officer's computer and deleted the
        software stored on the computer's hard drive. .       .
                                                              e
                                                                   claims that he was unaware of the
        site's discovery by DIS, and claims that he dismantled the site because he had obtained
        enough sofrware to satisfy him. He concluded that the risk of discovery by NSF posed by the
        large volume of users did not justify the site's continued existence. In deleting the files, he
        hoped to avoid detection of the site by NSF.

               O n 25 July 1996,           provided us with a sworn statement (see Attachment 2),
        in which he admitted- to having. established the FTP site for the purpose of obtaining
        unauthorized copies of copyrighted software. He admitted that he had obtained nGrnerous
        games and applications software through the site(see Attachment 3). He also admitted that .
        he had dismantled the site'and deleted the software files in an attempt to avoid detection by
        NSF.
e   111. Conclusion

            Because.        - actions involved potential criminal copyright infringement, we
    referred the matter to the Department of Justice, as required by law. The Department
    declined to pursue criminal action against - -      deferring to administrative action by
    the NSF. Accordingly, NSF should now evaluate whethe; administrative action would be
    appropriate.

           In addition, the software companies that sell the copyrighted programs that - _
    received and distributed freely may have civil remedies available under federal copyright law.
    NSF should evaluate whether it should notify these companies ofi- _          - actions while
    employed by NSF.

           Please advise us of the actions taken with regard to this matter.
                   Attachment 1
               '   '6


-   directions to users regarding how to use the Fl-P site
